U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                            August 2009
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the fifteenth since enactment of the legislation in October 2001 – summarizes
the OIG’s Section 1001-related activities from January 1, 2009, through
June 30, 2009.

I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.

       •   Oversight and Review Division blends the skills of attorneys,
           investigators, and program analysts to investigate or review high


       1  The OIG has authority to investigate allegations of misconduct by any Department
employee, except for allegations of misconduct "involving Department attorneys, investigators,
or law enforcement personnel, where the allegations relate to the exercise of the authority of an
attorney to investigate, litigate, or provide legal advice . . . . " See 5 U.S.C. App. 3 §8E(b)(3).


Office of the Inspector General, U.S. Department of Justice                            Page 1
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 420 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001. 2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001
matters, a second who assists on FBI matters, and a third who provides
support on DEA and ATF cases. In addition, five Investigative Specialists
support the unit and divide their time between Section 1001 and
FBI/DEA/ATF responsibilities.

      The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by an ASAC who makes a decision concerning the disposition of each
complaint. After review, each complaint is entered into an OIG database by an
Investigative Specialist. The more serious civil rights and civil liberties
allegations that relate to actions of DOJ employees or DOJ contractors
normally are assigned to an OIG Investigations Division field office, where OIG
special agents conduct investigations of criminal violations and administrative
misconduct. 3 Some complaints are assigned to the OIG’s Oversight and Review
Division for investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff or by the Border Patrol are sent to the

      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                           Page 3
Department of Homeland Security (DHS) OIG. We also have forwarded
complaints to the OIGs of the Department of State, the Social Security
Administration, the Department of Education, and the Navy Criminal
Investigative Service. In addition, we have referred complainants to state
Departments of Correction that have jurisdiction over the subject of the
complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, we discuss the
complaint with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation either by the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

     A. Complaints Processed This Reporting Period

       From January 1, 2009, through June 30, 2009, the period covered by
this report, the OIG processed 600 Section 1001-related complaints. 4

       Of these complaints, we concluded that 428 did not fall within the OIG’s
jurisdiction or did not warrant further investigation. Approximately 409 of
these 428 complaints involved allegations against agencies or entities outside
the DOJ, including other federal agencies, local governments, or private
businesses. When possible, we referred those complaints to the appropriate
entity or advised complainants of the entity with jurisdiction over their
allegations. The remaining 19 of the 428 complaints raised allegations that, on
their face, did not warrant investigation. Complaints in this category included,
for example, allegations that the FBI was harassing individuals through the use
of electromagnetic, chemical, and electronic mind control devices.

      The remaining 172 of the 600 total complaints involved DOJ employees
or components and included allegations that required further review. We
determined that 165 complaints raised management issues that generally were
not related to the OIG’s Section 1001 duties, and we referred these complaints
to DOJ components for appropriate handling. Examples of complaints in this
category included inmates’ allegations about the general conditions at federal
prisons or complaints that the FBI did not initiate an investigation into
particular allegations.

      The OIG identified the 7 remaining complaints as matters that we
believed warranted an investigation to determine if Section 1001-related abuse
occurred. Two of the seven matters were investigated by the OIG, and we

     4 This number includes all complaints in which the complainant makes any mention of a
Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.


Office of the Inspector General, U.S. Department of Justice                             Page 4
referred the other five matters to the BOP for investigation. We discuss the
substance of these 7 complaints in the next section of this report.

       None of the 600 complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the complaints processed during this
reporting period:

      Complaints processed:                        600

      Unrelated complaints:                        428

      Total complaints within OIG’s
       jurisdiction warranting review:             172

      Management issues:                           165

      Possible Section 1001 matters
      warranting investigation:                       7

    B. Section 1001 Cases This Reporting Period

      1. New matters

      During this reporting period, the OIG opened two new Section 1001
investigations. Additionally, the OIG referred 5 Section 1001-related
complaints to the BOP for investigation.

      The following is a summary of the new matters opened by the OIG during
   this reporting period:

         •   The OIG is investigating an allegation made by the spouse of a
             Muslim inmate that the inmate was assaulted by BOP correctional
             officers, placed in the prison’s Special Housing Unit (SHU), and
             prevented from participating in a religious program. The
             complainant alleged further that BOP staff told her that her
             husband had engaged in an unprovoked assault on BOP staff
             members, which gave rise to staff’s use of force against him.

        •    The OIG is investigating a Muslim inmate’s allegations that two
             BOP staff members told him they and others hated him because he
             is Arab and Muslim, and made crude statements to him relating to
             his religious articles. The inmate alleged further that BOP
             correctional officers directed other inmates to attack him and that


Office of the Inspector General, U.S. Department of Justice            Page 5
             he did not receive timely medical treatment for injuries resulting
             from the assault. In addition, the inmate alleged that several
             prison officials have threatened him in an effort to force him to
             withdraw these complaints. Other allegations made by the inmate
             include that his mail was withheld from him and that he was
             denied a transfer to another facility.

       The following 5 complaints were referred by the OIG to the BOP for
investigation during this reporting period. While the investigations of 2 of
these matters are continuing, the BOP completed its investigations of the other
3 matters and did not substantiate those complaints. For each of these
referrals, we requested that the BOP provide the OIG with a copy of its
investigative report upon completion of the investigation.

      Continuing investigations:

        •    A Muslim inmate alleged that BOP staff refused to allow him to
             return to his cell from the recreation yard despite his repeated
             requests to use the restroom. The inmate alleged that he has
             irritable bowel syndrome and suffered from stomach pain,
             cramping, and bloating when he was forced to stay in the recreation
             yard for 2 hours. The inmate alleged that non-Arab inmates were
             allowed to return to their cells to use the restroom.

        •    An inmate reported that he sent a complaint to the Department of
             Health and Human Services regarding his concerns about the
             public health and safety of inmates at a BOP facility. The inmate
             alleged that subsequent to his sending that complaint, he was fired
             from his job at the facility where he was housed, subjected to a
             strip search without cause, sexually harassed, humiliated, and had
             his property confiscated by prison officials without their following
             proper procedures.

      BOP investigations closed during this reporting period:

         •   A Muslim inmate alleged that a correctional officer directed other
             staff to harass the inmate so that he would drop a lawsuit he filed
             against BOP personnel. The inmate also alleged that staff made
             sexually and racially discriminatory remarks towards him and
             endangered his safety by opening two cell doors at the same time.
             The BOP interviewed relevant staff who all denied making racially
             or sexually derogatory remarks toward the inmate. The BOP also
             found no evidence that two cell doors next to each other were
             opened at the same time. The BOP’s investigation determined that
             trash and contraband were removed from the inmate’s cell daily
             and that the inmate converts his clothing and sheets into robes


Office of the Inspector General, U.S. Department of Justice             Page 6
             and headgear, causing staff to issue new clothes to him daily. The
             BOP also determined that the inmate has a history of incident
             reports for being unsanitary and for destruction of government
             property. Interviews of staff revealed that the inmate is resentful
             that he is held accountable for his personal hygiene and cell
             sanitation. The BOP concluded that the inmate’s allegations were
             unsubstantiated.

         •   An inmate alleged that a correctional officer placed him in the SHU
             for approximately 3 months and that the correctional officer
             transferred him from the facility because he was a member of the
             Nation of Islam. BOP investigators interviewed the correctional
             officer and the chaplain, both of whom denied that they plotted to
             have the inmate transferred to another facility. BOP’s investigation
             determined that a conflict had arisen between Nation of Islam
             inmates and Sunni Muslim inmates stemming from a softball game
             and that the complainant was a leader of the Nation of Islam
             group. BOP’s investigation also found that the decision to transfer
             the inmate to another facility was related to concerns over security
             at the facility. The BOP concluded that the inmate’s allegations
             were unsubstantiated.

        •    An attorney representing a Muslim inmate who was convicted of
             terrorism offenses and is subject to special administrative measures
             alleged that the inmate has been kept in isolation since
             September 11, 2001, and that the inmate’s communications with
             persons outside the facility have been restricted in an effort to
             coerce the inmate to provide information to the U.S. government.
             The BOP investigated the allegations and determined that the
             inmate has daily contact with BOP staff, including medical staff,
             educational staff, and religious services staff. The BOP also
             determined that the inmate has the opportunity to visit and speak
             by telephone with members of his immediate family, and that he
             receives general and legal correspondence. The BOP also
             determined that the inmate has never been interrogated while in
             BOP custody. The BOP concluded that the allegations were
             unsubstantiated.

      2. Cases referred to BOP during previous reporting periods that the
         OIG continues to monitor

      The OIG referred the following 5 complaints to the BOP for investigation
during a prior reporting period. The investigations of 2 of these matters are
completed, with BOP finding that the allegations were substantiated. The OIG
continues to monitor the ongoing BOP disciplinary proceedings in these 2
matters. The investigations of the other 3 matters continue. For each of these


Office of the Inspector General, U.S. Department of Justice            Page 7
referrals, we requested that the BOP provide the OIG with a copy of its
investigative report upon completion of the investigation.

        •   An inmate alleged that he has been subjected to continuous
            discrimination and verbal abuse by BOP employees because he is
            from Afghanistan. The BOP’s investigation sustained the allegation
            of unprofessional conduct against two BOP employees, and this
            matter is pending disciplinary action.

        •   A BOP employee alleged that he was being verbally abused by BOP
            staff because he is Muslim. The BOP’s investigation substantiated
            that a correctional officer acted unprofessionally during a
            conversation with the complainant. However, the complainant’s
            allegation that the correctional officer and others made disparaging
            remarks to him about his national origin and sexual relations with
            his wife were not substantiated. This matter is pending disciplinary
            action.

        •   An inmate alleged that a BOP physician’s assistant refused to
            provide him with medical treatment and called him a terrorist. The
            inmate further alleged that the physician’s assistant made false
            entries to his medical records chart that tarnished his character.
            The BOP continues to investigate this matter.

        •   An inmate who is originally from Pakistan alleged that he has been
            discriminated against by BOP employees because of his race and
            religion. The inmate alleged that he has been transferred several
            times and unfairly placed in the Special Housing Unit, where he
            was harassed by correctional officers, did not receive timely medical
            treatment, had his legal documents confiscated, and was forced to
            sleep on dirty bed linens. The BOP continues its investigation of
            this matter.

        •   A Muslim inmate alleged that a BOP facility did not provide
            adequate locations within the housing unit for prayer. The inmate
            also claimed that he and other Muslim inmates were forced to work
            during times when they are required by their religion to pray, and
            that they were not permitted to bring their prayer rugs to their job
            sites within the facility. The inmate alleged further that BOP staff
            interrupted him when he attempted to pray in the recreation yard
            or in other areas of the facility, reportedly telling him that BOP
            rules do not allow prayer in public locations where inmates
            congregate or at job sites. Finally, the inmate also alleged that the
            facility does not offer a Halal diet, and as a result he is forced to eat
            foods prohibited by his religion. The BOP’s investigation of this
            matter is ongoing.


Office of the Inspector General, U.S. Department of Justice                Page 8
      3. Previously opened investigations that were closed during this
         reporting period

      BOP completed its investigations of 3 Section 1001-related matters
during this reporting period that had been referred by the OIG in prior periods.
For each of these referrals, we requested that the BOP provide the OIG with a
copy of its investigative report.

        •   The spouse of a Muslim inmate alleged that she was mistreated by
            BOP staff when she visited her husband because she is Muslim.
            The complainant alleged that on one occasion she was ordered to
            remove her bra when a metal detector alerted as she entered the
            facility. The complainant also alleged that BOP staff treated her
            differently from another female visitor who was not Muslim.
            Specifically, she complained that she was subjected to a physical
            search while the other female visitor was only required to be
            screened by a hand-held metal detector. The BOP interviewed
            involved staff members and they denied treating the complainant in
            a discriminatory manner. The correctional officer who conducted
            the pat search of the complainant stated that she did not direct the
            complainant to remove her bra and did not witness her do so. The
            correctional officer stated that during the pat search, she felt
            something hard under the complainant’s head covering. She said
            she asked the complainant if she had beads in her hair and
            removed a portion of the head covering when the complainant
            denied wearing beads in her hair. The correctional officer said she
            observed beads on the ends of complainant’s hair. The BOP
            concluded there was insufficient evidence to substantiate the
            complainant’s allegations of mistreatment.

        •   An inmate alleged that he and another inmate were verbally abused
            by a correctional officer because they are Muslim. The inmate also
            alleged that another correctional officer issued him 14 days of
            “extra duty” “for what Muslims did on 9/11.” The BOP interviewed
            the correctional officers, and they denied acting in an
            unprofessional manner toward the inmate. Additionally, the BOP’s
            investigation did not find any evidence or witnesses to corroborate
            the inmate’s allegations. The BOP concluded that there was
            insufficient evidence to substantiate the complainant’s allegations.

        •   An inmate alleged that a BOP correctional officer ridiculed his
            Muslim faith and made disparaging remarks about Islam. The
            correctional officer allegedly told the inmate that Muslim inmates
            should not have special rights in prison and that all inmates should


Office of the Inspector General, U.S. Department of Justice            Page 9
           be required to eat the same food. The inmate alleged further that
           the correctional officer told the inmate that the Prophet Mohammad
           was only a man. The inmate also alleged that BOP personnel
           conspired illegally to prevent him from consuming a diet in
           accordance with his religious beliefs. The BOP attempted to
           interview the inmate about his allegations, but the inmate was
           unwilling to provide a verbal statement or affidavit because he said
           the issue had been resolved and that no further action was
           necessary. The inmate stated that he was being provided with
           foods he was permitted to eat under his religious beliefs. The BOP’s
           interviews of its staff showed that the inmate had been removed
           from his religious diet because he violated the religious diet
           agreement. Under BOP regulations, only a chaplain can remove an
           inmate from his religious diet. The inmate was reinstated to the
           religious diet list after it was determined that the chaplain had not
           removed him from the list. The BOP interviewed the correctional
           officer who allegedly made derogatory remarks about the Muslim
           faith, and the officer denied the allegations. The BOP concluded
           that there was insufficient evidence to substantiate those
           allegations.

IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has initiated or continued several
such special reviews that relate to the OIG’s duties under Section 1001. These
reviews are discussed in this section of the report.

      A. Review of the Department’s Involvement with the President’s
         Surveillance Program

      In the weeks following the terrorist attacks of September 11, 2001, the
President authorized National Security Agency (NSA) to conduct a classified
program to detect and prevent further attacks in the United States. The
program was reauthorized by the President every 45 days with certain
modifications. Collectively, the activities carried out under these
Authorizations are referred to as the “President’s Surveillance Program” (“PSP”
or “Program”).

      In July 2009, the OIG completed a 407-page classified report, entitled “A
Review of the Department of Justice’s Involvement with the President’s
Surveillance Program,” detailing the Department’s role in the PSP. The report
examined the Department’s controls over and use of information related to the
PSP and the Department’s compliance with legal requirements governing the


Office of the Inspector General, U.S. Department of Justice           Page 10
PSP. The OIG focused in particular on the Department’s role in providing legal
advice concerning the Program and on the FBI’s role as a consumer of
information from the Program. The OIG found that only one Office of Legal
Counsel (OLC) attorney, Deputy Assistant Attorney General John Yoo, was read
into the PSP during its first year and a half of operation. Other Department
officials who were later read into the PSP became concerned about the factual
and legal basis for Yoo’s legal memoranda and conducted a comprehensive
reassessment of the legal basis for the PSP.

       The OIG concluded that it was extraordinary and inappropriate that a
single DOJ attorney was relied upon to conduct the initial legal assessment of
the PSP, and that the lack of oversight and review of Yoo’s work, as customarily
is the practice of OLC, contributed to a legal analysis of the PSP that at a
minimum was factually flawed. Deficiencies in the legal memoranda became
apparent once additional DOJ attorneys were read into the program in 2003
and when those attorneys sought a greater understanding of the PSP’s
operation. The OIG concluded that the strict controls over DOJ access to the
PSP undermined DOJ’s ability to perform its critical legal function during the
PSP’s early phase of operation.

       The OIG also sought as part of its review to assess the role of PSP-
derived information and its value to the FBI’s overall counterterrorism efforts.
FBI Director Mueller stated that he believes the PSP was useful, and he based
this conclusion in part on the results of a survey the FBI conducted in 2006 to
assess the impact of PSP-derived information.

       The OIG also interviewed FBI officials, agents, and analysts responsible
for handling PSP information about their experiences with the program. These
assessments generally were supportive of the program as “one tool of many” in
the FBI's anti-terrorism efforts that “could help move cases forward,” although
most PSP leads were determined not to have any connection to terrorism. The
OIG also examined several cases that have frequently been cited as examples of
the PSP’s contribution to the Intelligence Community’s counterterrorism
efforts.

      However, the OIG also found that the exceptionally compartmented
nature of the program created some frustration for FBI personnel. Some
agents and analysts criticized the PSP-derived information they received for
providing insufficient details, and the agents who managed counterterrorism
programs at the FBI field offices the OIG visited said the FBI’s process for
disseminating PSP-derived information failed to adequately prioritize the
information for investigation.

       In sum, the OIG found it difficult to assess or quantify the overall
effectiveness of the PSP program as it relates to the FBI’s counterterrorism
activities. However, based on the interviews conducted and documents


Office of the Inspector General, U.S. Department of Justice            Page 11
reviewed, the OIG concluded that although PSP-derived information had value
in some counterterrorism investigations, it generally played a limited role in the
FBI's overall counterterrorism efforts.

       The OIG also considered public statements by former Attorney General
Alberto Gonzales about the Program. Aspects of the PSP were first disclosed
publicly in a series of articles in The New York Times in December 2005.
Subsequently, Attorney General Gonzales was questioned about NSA
surveillance activities in two public hearings before the Senate Judiciary
Committee in February 2006 and July 2007. As part of its review, the OIG
examined whether Gonzales made false, inaccurate, or misleading statements
to Congress in those hearings while testifying about a dispute between White
House and Department officials in March 2004 concerning the PSP. The OIG
concluded that Gonzales did not intend to mislead Congress, but found that
his testimony was confusing, inaccurate, and had the effect of misleading those
who were not knowledgeable about the Program.

Title III of the Foreign Intelligence Surveillance Act of 1978 Amendments Act of
2008 (FISA Amendments Act) required the Inspectors General of Intelligence
Community agencies that participated in the PSP to conduct a comprehensive
review of the program. The Department of Justice OIG, worked with the
Inspectors General of the Department of Defense, Central Intelligence Agency,
National Security Agency, and the Office of the Director of National Intelligence,
to conduct the review required under the FISA Amendments Act. On July 10,
2009, the group submitted to the Senate and House Intelligence and Judiciary
Committees five classified reports from the OIGs of the individual agencies
participating in the Program, a classified summary of the OIGs’ reviews, and an
unclassified report summarizing the portions of the collective results of the OIG
reviews that could be released in unclassified form. The unclassified summary
is available on the OIG’s web site.

      B. Review of the FBI’s Use of Exigent Letters and Other Improper
         Requests for Telephone Records

      As a follow-up to our reviews of the FBI’s use of national security letters
(NSL), the OIG is investigating the FBI’s use of exigent letters and other
improper requests to obtain telephone records. In our first report on NSLs,
issued in March 2007, we reported on a practice by which the FBI used over
700 exigent letters rather than NSLs to obtain telephone toll billing records.
We determined that by issuing exigent letters, the FBI circumvented the NSL
statutes and violated the Attorney General’s Guidelines and internal FBI policy.
Our investigation is examining in greater detail the FBI’s use of exigent letters
and its issuance of “blanket” NSLs used to “cover” or validate the information
obtained from exigent letters and other improper requests.




Office of the Inspector General, U.S. Department of Justice             Page 12
      C. The FBI’s Terrorist Watchlist Nomination Practices

      In May 2009, the OIG issued an audit that examined the FBI’s watchlist
practices, focusing on watchlist nominations submitted by FBI field offices and
headquarters divisions. This audit examined whether subjects of open FBI
cases are appropriately and timely included on the terrorist watchlist and
whether watchlist records are updated with new identifying information as
required. The audit also examined whether subjects of closed FBI
investigations are appropriately removed from the consolidated terrorist
watchlist in a timely manner.

       The consolidated terrorist watchlist is used by government frontline
screening personnel to determine how to respond when a known or suspected
terrorist requests entry into the United States. The failure either to place
appropriate individuals on the watchlist or to place them on the watchlist in a
timely manner increases the risk that these individuals are able to enter and
move freely within the United States. On the other hand, failure to remove or
timely remove individuals from the consolidated terrorist watchlist could result
in the denial of a passport or visa, prevent an individual from boarding a flight
or entering the United States, or cause an individual to be unnecessarily
questioned.

      The OIG audit concluded that the FBI did not consistently nominate
known or suspected terrorists to the consolidated terrorist watchlist in
accordance with FBI policy and did not update or remove watchlist records as
required. In addition, the audit found that the internal controls over processes
used to nominate individuals to the terrorist watchlist are weak or nonexistent.

      During the audit, we notified FBI officials about the deficiencies in its
watchlist practices, and the FBI began taking corrective actions, such as
providing training to terrorism case agents and establishing dedicated watchlist
coordinator positions in FBI field offices. However, our audit report concluded
that weaknesses continue to exist, that significant improvements are still
necessary, and that it is too early to tell whether the deficiencies identified in
this audit have been fully addressed.

      In the audit report, the OIG made 16 recommendations to the FBI
regarding nominations to, modifications of, and removal of identities from the
consolidated terrorist watchlist. The FBI agreed with all of these
recommendations.




Office of the Inspector General, U.S. Department of Justice             Page 13
V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $1,105,391 in
personnel costs, $935 in travel costs (for investigators to conduct interviews),
and $200 in miscellaneous costs, for a total of $1,106,526 to implement its
responsibilities under Section 1001. The total personnel and travel costs
reflect the time and funds spent by OIG special agents, inspectors, and
attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice            Page 14
